<html>
<title> - EXPERTS NEEDED: OPTIONS FOR IMPROVED SCIENCE AND TECHNOLOGY ADVICE FOR CONGRESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                            EXPERTS NEEDED:
                      OPTIONS FOR IMPROVED SCIENCE
                   AND TECHNOLOGY ADVICE FOR CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 5, 2019

                               __________

                           Serial No. 116-60

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 

       Available via the World Wide Web: http://science.house.gov
       
       
       
                             ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 38-483 PDF             WASHINGTON : 2020 
 
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  JAIME HERRERA BEUTLER, Washington
CHARLIE CRIST, Florida               FRANCIS ROONEY, Florida
SEAN CASTEN, Illinois                GREGORY F. MURPHY, North Carolina
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
VACANCY
                         C  O  N  T  E  N  T  S

                            December 5, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written statement............................................    10

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written statement............................................    12

                               Witnesses:

The Honorable Michael McCord, Director, Civil-Military Programs, 
  Stennis Center for Public Service
    Oral Statement...............................................    14
    Written Statement............................................    16

Ms. Laura Manley, Director, Technology and Public Purpose 
  Project, Belfer Center for Science and International Affairs, 
  Harvard Kennedy School of Government
    Oral Statement...............................................    24
    Written Statement............................................    26

Dr. Tim Persons, Chief Scientist and Managing Director, Science, 
  Technology Assessment, and Analytics, U.S. Government 
  Accountability Office
    Oral Statement...............................................    37
    Written Statement............................................    39

Dr. Peter Blair, Executive Director, Division on Engineering and 
  Physical Sciences, The National Academies of Sciences, 
  Engineering, and Medicine
    Oral Statement...............................................    80
    Written Statement............................................    83

Discussion.......................................................    96

             Appendix I: Answers to Post-Hearing Questions

The Honorable Michael McCord, Director, Civil-Military Programs, 
  Stennis Center for Public Service..............................   122

Dr. Tim Persons, Chief Scientist and Managing Director, Science, 
  Technology Assessment, and Analytics, U.S. Government 
  Accountability Office..........................................   125

Dr. Peter Blair, Executive Director, Division on Engineering and 
  Physical Sciences, The National Academies of Sciences, 
  Engineering, and Medicine......................................   128

            Appendix II: Additional Material for the Record

Letter submitted by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................   134

Report submitted by Representative Bill Foster, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   136

Executive Summary of a report submitted by the Hon. Michael 
  McCord, Director, Civil-Military Programs, Stennis Center for 
  Public Service.................................................   148


                            EXPERTS NEEDED:

                      OPTIONS FOR IMPROVED SCIENCE

                   AND TECHNOLOGY ADVICE FOR CONGRESS

                              ----------                              


                       THURSDAY, DECEMBER 5, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:02 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Johnson. Good morning. This hearing will come to 
order. And without objection, the Chair is authorized to 
declare a recess at any time.
    Welcome, everyone, especially our witnesses.
    The history of a technology assessment function within the 
legislative branch is tied to our Committee's early history. 
Beginning in the mid-1960s the Committee's then-existing 
Subcommittee on Science, Research, and Development organized a 
series of hearings on the relationship between science, 
technology, and society and the need for Congress to be 
informed about emerging technology risk.
    Several years and many hearings and reports later Congress 
enacted the Technology Assessment Act of 1972, creating the 
Office of Technology Assessment (OTA). During its 20 years of 
operation, OTA created 700 reports on the science and 
technology (S&T) relevant to issues of importance to Congress. 
As we all know, the OTA was defunded and disbanded in 1995. My 
friend and former Republican colleague, Congressman Sherry 
Boehlert, defended the OTA during the debate to defund it. In 
his remarks, he questioned the wisdom of disbanding OTA, 
arguing that the public wanted us to do more with less, not to 
do more knowing less.
    Today, the Science, Space, and Technology Committee has its 
own expert staff, many of whom have Ph.D.s, to help Members of 
this Committee navigate tough science and technology issues. 
Science Committee staff also serve as a resource for personal 
offices across the House, and in some case for other 
committees. But committee staff are not a replacement for OTA. 
Our Committee and others also rely heavily on expertise at the 
executive branch agencies and from entities outside the 
government such as the National Academies. But the fact is much 
of the information we receive from outside sources comes from 
individuals or organizations with a particular point of view 
that we must sort through.
    We also turn to GAO (Government Accountability Office) to 
fill some of our science and technology needs. However, GAO is 
still far from filling the gap left by the defunding of OTA. In 
short, since 1995 there has not been a single, trusted, 
comprehensive, and authoritative source of science and 
technology advice for Congress.
    Since its disbanding, there have been a few persistent 
champions for bringing back the OTA. In the last couple of 
years, those few voices have become a chorus, with support from 
both sides of the political spectrum. The reason is clear. With 
every passing year, scientific and technological issues are 
becoming more complex and with increasing societal impacts. 
Absent an OTA, we are often left struggling to make sense of 
the competing expert opinions but still having to make policy 
decisions in this murky context, with potentially grave 
consequences. The alternative is to be paralyzed into inaction, 
ceding decisionmaking to the private sector or to other 
countries, including our adversaries.
    Today's discussion will cover a range of topics relevant to 
how Congress receives and uses scientific and technical advice. 
And these topics are all important. However, the central 
question for today's hearing is this: Do we bring back a 
modernized OTA, or do we provide GAO with additional mandates 
and resources to fill that gap? My hope is that in addressing 
this question, we can temporarily set aside questions of what 
is politically expedient and get to the core arguments weighing 
in favor and against each option for meeting the needs of 
Congress. In other words, I hope this hearing emulates the 
practice followed by OTA in providing this Committee with the 
sound policy options, while leaving it to Congress to figure 
out the politics. While we no longer have a legislative 
jurisdiction, it is appropriate that 55 years after the first 
hearing, the Science Committee continues to lead this 
discussion.
    I thank the expert witnesses for being here today, and I 
look forward to your testimony.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning and welcome to our witnesses. The history of a 
technology assessment function within the legislative branch is 
tied to our own Committee's early history. Beginning in the 
mid1960's the Committee's then existing Subcommittee on 
Science, Research, and Development organized a series of 
hearings on the relationship between science, technology, and 
society, and the need for Congress to be informed about 
emerging technology risks.
    Several years, and many hearings and reports later, 
Congress enacted the Technology Assessment Act of 1972, 
creating the Office of Technology Assessment. During its 20 
years of operation, OTA created 700 reports on the science and 
technology relevant to issues of importance to Congress.
    As we all know, the OTA was defunded and disbanded in 1995. 
My friend and former Republican colleague, Congressman Sherry 
Boehlert, defended the OTA during the debate to defund it. In 
his remarks, he questioned the wisdom of disbanding OTA, 
arguing that the public wanted us to do more with less, not to 
do more knowing less.
    Today, the Science, Space, and Technology Committee has its 
own expert staff, many of whom have PhDs, to help Members of 
this Committee navigate tough science and technology issues. 
Science Committee staff also serve as a resource for personal 
offices across the House, and in some case for other 
Committees. But Committee staff are not a replacement for OTA. 
Our Committee and others also rely heavily on expertise at the 
executive branch agencies and from entities outside of 
government, such as the National Academies. But the fact is, 
much of the information we receive from outside sources comes 
from individuals or organizations with a particular point of 
view that we must sort through. We also turn to GAO to fill 
some of our science and technology needs. However, GAO is still 
far from filling the gap left by the defunding of OTA. In 
short, since 1995 there has not been a single, trusted, 
comprehensive and authoritative source of science and 
technology advice for Congress.
    Since its disbanding, there have been a few persistent 
champions for bringing back the OTA. In the last couple of 
years, those few voices have become a chorus, with support from 
both ends of the political spectrum. The reason is clear. With 
every passing year, scientific and technological issues are 
becoming more complex and with increasing societal impacts. 
Absent an OTA, we are often left struggling to make sense of 
competing expert opinions but still having to make policy 
decisions in this murky context, with potentially grave 
consequences. The alternative is to be paralyzed into inaction, 
ceding decision making to the private sector or to other 
countries, including our adversaries.
    Today's discussion will cover a range of topics relevant to 
how Congress receives and uses scientific and technical advice. 
And these topics are all important. However, the central 
question for today's hearing is this: do we bring back a 
modernized OTA, or do we provide GAO with additional mandates 
and resources to fill the gap? My hope is that in addressing 
this question, we can temporarily set aside questions of what 
is politically expedient and get to the core arguments weighing 
in favor and against each option for meeting the needs of 
Congress. In other words, I hope this hearing emulates the 
practice followed by OTA in providing this Committee with sound 
policy options, while leaving it to Congress to figure out the 
politics.
    While we no longer have legislative jurisdiction, it is 
appropriate that 55 years after the first hearings, the Science 
Committee continues to lead this discussion. I thank the expert 
witnesses for being here and I look forward to your testimony.

    Chairwoman Johnson. Before I recognize Ranking Member Lucas 
for his opening statement, I'd like to present for the record a 
letter from the R Street Institute and Lincoln Network 
regarding this hearing.
    The Committee now recognizes Mr. Lucas.
    Mr. Lucas. Thank you, Chairwoman Johnson, for holding this 
hearing today. I appreciate the opportunity to discuss ways to 
improve the resources available to Congress for science and 
technology issues.
    Over the last few years, we've heard that some Members of 
Congress do not believe they have the resources they need to 
evaluate science and technology issues. In response, the 
Appropriations Committee has taken a number of steps to address 
these concerns.
    First, they have directed the Government Accountability 
Office to expand its technology assessment capacities. Since 
2007, Congress has funded GAO to do this S&T work. At the 
direction of the appropriators, GAO also stood up a separate 
Science, Technology Assessment, and Analytics team. I look 
forward to hearing from Dr. Persons about that effort, and the 
plan to grow that team to meet the needs of Congress.
    Second, appropriators directed the Congressional Research 
Service (CRS) to commission a study by the National Academy of 
Public Administration to identify gaps in congressional S&T 
resources and make recommendations. That report was just 
released a few weeks ago. And I appreciate the thoughtful work 
the study committee did to understand the needs of Congress and 
recommend thoughtful solutions. We'll hear more about those 
recommendations today from a member of the study committee, Mr. 
McCord.
    I believe Chairwoman Johnson and I agree that one of our 
most important jobs as a Committee is to serve as a resource on 
science and technology issues that come before us, not just for 
our Committee Members but for the entire House. We're fortunate 
to have staff on both sides of the aisle with a variety of 
expertise in science, engineering, policy, and the law. Our 
staff provides good counsel, and they also can tap into a 
wealth of knowledge from outside expertise on subjects ranging 
from quantum computing to engineering biology.
    However, I recognize that our staff does not have the 
capacity to provide the type of support and analysis needed by 
every Member of Congress. So I'm eager to hear more about the 
resources GAO is providing and NAPA's (National Academy of 
Public Administration's) recommendations on how we can best 
meet our informational needs.
    In my time in Congress, I have witnessed Committee and 
Member office budgets shrink and our ability to retain and pay 
staff diminish. I look forward to hearing ideas from our panel 
about how to attract and retain S&T talent; also, thoughts on 
how to communicate to our constituents the importance of 
Congress being able to have the capacity to fulfill its 
constitutional duties, particularly when it comes to dealing 
with the challenges and opportunities of emerging technologies.
    I'm one of the few Members of the Committee who was 
actually, I guess the Chair and I and Congresswoman Lofgren 
were Members of Congress when the Office of Technology 
Assessment was defunded and when those functions were later 
transitioned to GAO and CRS. At the time, many on my side of 
the aisle saw OTA as duplicative of other resources. Many also 
believed that the office had strayed from its intended purpose 
of being an unbiased, nonpartisan organization.
    Over the last few years, there's been a small but 
passionate contingent of Congress Members and think tank 
experts who've advocated for restoring OTA. I think there's a 
tendency to look to the past with rose-colored glasses and that 
if we just went back to the way things were, everything that's 
wrong with Congress would be fixed. Well, not everything in 
Congress worked perfectly when I came here in 1994, and it's 
certainly not working perfectly now. I acknowledge that. I 
think there is merit in evaluating what would serve our Members 
best in the 21st century, as we are doing here today.
    I still believe the U.S. Congress is the best deliberative 
body in the world. I look forward to a positive, bipartisan 
discussion today on how to make it better and to best serve the 
American people.
    And with that, I yield back, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Johnson for holding this hearing 
today. I appreciate the opportunity to discuss ways to improve 
the resources available to Congress for science and technology 
issues.
    Over the last few years, we've heard that some Members of 
Congress do not believe they have the resources they need to 
evaluate science and technology issues. In response, the 
Appropriations Committees have taken a number of steps to 
address these concerns.
    First, they have directed the Government Accountability 
Office (GAO) to expand its technology assessment capabilities. 
Since 2007 Congress has funded GAO to do this S&T work.
    At the direction of the appropriators, GAO also stood up a 
separate Science, Technology Assessment, and Analytics team. I 
look forward to hearing from Dr. Persons about that effort, and 
the plans to grow that team to meet the needs of Congress.
    Second, appropriators directed the Congressional Research 
Service (CRS) to commission a study by the National Academy of 
Public Administration (NAPA) to identify gaps in congressional 
S&T resources and make recommendations.
    That report was just released a few weeks ago. I appreciate 
the thoughtful work the study committee did to understand the 
needs of Congress and recommend thoughtful solutions. We will 
hear more about those recommendations today from a member of 
the study committee, Mr. McCord.
    I believe Chairwoman Johnson and I agree that one of our 
most important jobs as a Committee is to serve as a resource on 
the science and technology issues that come before us-not just 
for our Committee Members but for the entire House. We are 
fortunate to have staff on both sides of the aisle with a 
variety of expertise in science, engineering, policy, and the 
law.
    Our staff provides good counsel and they also can tap into 
a wealth of knowledge from outside expertise on subjects 
ranging from quantum computing to engineering biology.
    However, I recognize that our staff does not have the 
capacity to provide the type of support and analysis needed by 
every Member of Congress.
    So I'm eager to hear more about the resources GAO is 
providing, and NAPA's recommendations on how we can best meet 
our informational needs.
    In my time in Congress, I have witnessed Committee and 
Member office budgets shrink, and our ability to retain and pay 
staff diminish. I look forward to hearing ideas from our panel 
about how can attract and retain S&T talent.
    Also, thoughts on how to communicate to our constituents 
the importance of Congress being able to have the capacity to 
fulfill its constitutional duties, particularly when it comes 
to dealing with the challenges and opportunities of emerging 
technologies.
    I am one of the few Members of this Committee who was in 
Congress in 1994 when the Office of Technology Assessment was 
defunded, and when those functions were later transitioned to 
the GAO and CRS.
    At the time, many on my side of the aisle saw the OTA as 
duplicative of other resources. Many also believed that the 
office had strayed from its intended purpose of being an 
unbiased, nonpartisan organization.
    For the last few years, there has been a small but 
passionate contingent of Congress Members and think tank 
experts who have advocated for reinstating the OTA. I think 
there is a tendency to look to the past with rose colored 
glasses. And that if we just went back to the way things were, 
everything that's wrong with Congress would be fixed.
    Well, not everything in Congress worked perfectly when I 
came here in 1994, and it's certainly not working perfectly 
now. I think there is merit in evaluating what would serve our 
Members best in the 21st Century, as we are doing today.
    I still believe the U.S. Congress is the best deliberative 
body in the world. I look forward to a positive, bipartisan 
discussion today on how to help make it better, to best serve 
the American people.

    Chairwoman Johnson. Thank you very much.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I'd like to introduce our witnesses. Our first 
witness is the Honorable Michael McCord. Mr. McCord is the 
Director of Civil-Military Programs at the Stennis Center for 
Public Service. He also serves as an Adjunct Research Staff 
Member at the Institute of Defense Analysis and is a Fellow of 
the National Academy of Public Administration. Previously, Mr. 
McCord served 8 years at the U.S. Department of Defense as 
Under Secretary of Defense (Comptroller)/Chief Financial 
Officer, and before that as a Principal Deputy Under Secretary 
for Defense, Comptroller. In these roles he has advised 
Secretaries of Defense Gates, Panetta, Hagel, and Carter on all 
budgetary and financial matters.
    Our next witness, Ms. Laura Manley. Ms. Manley is the 
inaugural Director of the Technology and Public Purpose Project 
at the Harvard Kennedy School Belfer Center for Science and 
International Affairs. In this role, she is responsible for all 
project research and programs, including societal due diligence 
assessments for tech investors, emerging tech briefing guides 
for policymakers, and strategies for increasing congressional 
S&T capacity. Previously, Ms. Manley cofounded the Center for 
Open Data Enterprise, a nonpartisan research organization that 
works with governments to leverage data for social and economic 
good. She's also the Senior Consultant for the World Bank Group 
and the United Nations' Department of Economic and Social 
Affairs.
    After Ms. Manley, Dr. Timothy Persons. Dr. Persons is the 
Chief Scientist and Managing Director of the Science, 
Technology Assessment, and Analysis Team of the U.S. Government 
Accountability Office. He also founded GAO's Innovation Lab and 
directs GAO's science, technology, and engineering portfolio. 
In these roles, he has led a large interdisciplinary technical 
team, which has advised Congress and informed legislation on a 
number of topics, including artificial intelligence, 
sustainable chemistry, and advanced data analysis, among 
others. Prior to joining GAO, Dr. Persons served as Technical 
Director for the Intelligence Advanced Research Projects 
Agency.
    Our fourth witness, Dr. Peter Blair. Dr. Blair is Executive 
Director of Engineering and Physical Sciences at the National 
Academies of Sciences, Engineering, and Medicine. From 1983 to 
1996 Dr. Blair served in several capacities at the 
congressional Office of Technology Assessment, concluding as 
Assistant Director of the agency and Director of the Industry, 
Commerce, and International Security Division. He's also author 
of the book, ``Congress' Own Think Tank: Learning from the 
Legacy of the congressional Office of Technology Assessment.''
    Our witnesses should know that you will have 5 minutes for 
your spoken testimony. Your written testimony will be included 
in the record for the hearing. When all of you have completed 
your spoken testimony, we will begin with questions. And each 
Member will have 5 minutes to question the panel. So we'll 
start with Mr. McCord.

              TESTIMONY OF THE HON. MICHAEL McCORD,

               DIRECTOR, CIVIL-MILITARY PROGRAMS,

               STENNIS CENTER FOR PUBLIC SERVICE

    Mr. McCord. Good morning, Chairwoman Johnson, Ranking 
Member Lucas, and Members of the Committee. Thank you for the 
opportunity to be part of this hearing and of the effort to 
make this institution more informed and effective on science 
and technology issues.
    I testify today in my role as a Fellow of the National 
Academy of Public Administration and specifically as a member 
of the five-person panel that analyzed science and technology 
support to Congress. The Academy is a nonprofit independent 
organization helping governments at all levels solve the 
Nation's complex public management challenges and, like the 
National Academy of Sciences, we are chartered by Congress.
    Our report on this was posted on the Academy website on 
November 14. As Mr. Lucas noted, this report was prepared for 
the Congress and at the direction of the Congress in the Fiscal 
Year 2019 legislative branch appropriations bill. I thank the 
Committee for making our full report part of the record of this 
hearing, along with my written statement and for the 
opportunity to appear before you to discuss our findings and 
recommendations.
    As part of our panel's efforts, our staff interviewed over 
100 stakeholders. Although they may not agree with our 
recommendations, we did talk to all of my fellow witnesses at 
this table today in conducting our analysis.
    The accelerating rate of change in science and technology 
in the 21st century brings enormous benefits and challenges to 
both individual citizens and to those of you who are 
responsible for evaluating how these changes impact society as 
a whole. In this context, Congress needs to improve its 
capacity to deal with science and technology-related issues. 
You have some resources available to you now. The question is 
are they adequate to meet your needs?
    Our task, as laid out in the appropriations conference 
report, was, first, to review the current science and 
technology resources available within the legislative branch, 
including GAO and CRS; next, to assess the potential need to 
create a separate entity to provide nonpartisan advice on these 
issues such as the former Office of Technology Assessment; and 
then finally, to address whether creating that kind of office 
would duplicate services already available to you.
    Our report identified several types of S&T products or 
services that Congress requires to do its work. They are 
summarized in the table that is part of my written statement. 
We then looked at the supply of staff resources available to 
you and assessed whether it was sufficient to meet the demands 
that we identified. We concluded that current resources are not 
sufficient and assessed options for filling the gaps that we 
saw.
    First, we looked at relying on the existing agencies like 
GAO and CRS. We also looked at creating a new agency, and 
finally, we looked at a hybrid approach of building on the 
existing resources but allowing for some new organization or 
entity to fill gaps.
    In assessing these options, we tried to balance how well 
each option would provide the capabilities that are needed to 
meet your demands with how difficult it would be to implement 
and how likely would it be to succeed and be sustainable over 
the long-term.
    So let me now describe our recommendations, which is the 
hybrid approach of enhancing existing capabilities and creating 
a new advisory office. There are sort of two parts of this 
recommendation. First is on what I would call the supply side, 
increasing support resources for Congress, and second is on 
your ability as an institution to absorb and make use of 
additional capabilities.
    So on that first track, increasing the supply of resources 
available to you, our recommendation is, first, that CRS should 
enhance and expand its quick turnaround and consultative 
services; second, that GAO should further develop the 
capability of its Science, Technology Assessment, and Analytics 
(STAA) mission team to meet some of the gaps identified in our 
report and should separate those STAA experts to the maximum 
extent possible from its audit and oversight function, which is 
somewhat of a different culture.
    Next, Congress should create an office of the congressional 
S&T Advisor, which would focus on efforts to build the 
absorptive capacity of Congress to include supporting 
recruiting S&T advisors for House and Senate Committees with 
major oversight responsibilities so that you have greater S&T 
expertise in the Committees where legislation is being 
produced. This new office would also be responsible for horizon 
scanning, which we would envision being communicated to 
Congress in the form of an annual report and annual testimony 
by this advisor.
    Finally, we believe Congress should create a coordinating 
council to be led by this advisor to limit duplication across 
this advisor's office, CRS, GAO, et cetera.
    The second track of our recommendation is improving 
Congress' ability to absorb greater levels of information about 
S&T policy issues. We believe that's just as important as what 
resources you ultimately decide to add on supply side. We 
believe our recommendations will address your needs. That said, 
we also recommend that Congress conduct a thorough review to 
evaluate the performance of these reforms 24 months after 
implementation so you can adjust where needed.
    Finally, we recommend that Congress pass legislation to 
carry out these reforms. Even if you could do these changes by 
fitting it in existing authorities, we strongly urge you to 
pass a bill that lays out the course the House and Senate agree 
on to create that public record and to force a compromise and 
buy-in from both bodies.
    I would summarize our approach as, first, make more use of 
and enhance the tools already in your workshop. Thank you, and 
I'll be happy to answer your questions and provide further 
details.
    [The prepared statement of Mr. McCord follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Chairwoman Johnson. Thank you, Mr. McCord. Ms. Laura 
Manley.

                 TESTIMONY OF MS. LAURA MANLEY,

        DIRECTOR, TECHNOLOGY AND PUBLIC PURPOSE PROJECT,

                   BELFER CENTER FOR SCIENCE

                   AND INTERNATIONAL AFFAIRS,

              HARVARD KENNEDY SCHOOL OF GOVERNMENT

    Ms. Manley. Chairwoman Johnson, Ranking Member Lucas, and 
distinguished Members of the Committee, thank you for calling 
today's hearing and the opportunity to testify. My name is 
Laura Manley, and I'm the Director of the Technology and Public 
Purpose Project at the Harvard Kennedy School's Belfer Center 
for Science and International Affairs. Our mission is to ensure 
that emerging technologies are both developed and managed in 
ways that protect the public good. We conduct research on how 
to integrate societal impacts like privacy, safety, security, 
transparency, and inclusion at each step of new technology's 
development, production, and management.
    One of the most critical opportunities to ensure new 
technologies are benefiting the public while harms are 
minimized is governance through the U.S. Congress. Eight out of 
10 of the largest tech companies in the world are U.S.-based, 
giving Congress the unique position and power to create 
thoughtful legislation on these new technologies.
    While you represent your constituents in this country, your 
decisions also have the power to affect billions of people 
around the world impacted by emerging tech. Therefore, over the 
past 18 months we've conducted research on how congressional 
personal offices and committees identify S&T needs, find 
relevant resources, absorb the salient points, and use that 
information in the policymaking process.
    After consulting with over 140 current and former Members 
of Congress, staffers, support agency leaders, lobbyists, civil 
society experts, and academics, we've uncovered several issues. 
First, much of the debate around solutions to the S&T gap 
present a false choice between building external support agency 
expertise and internal capacity efforts. We find that both are 
needed in order to effectively address the gap for several 
reasons.
    One, the S&T demands on Congress vary so widely neither a 
single centralized expertise body nor a bolstered staff would 
alone address all issues. Two, even with access to the smartest 
experts in the world on any given technical topic, personal 
offices and committees still need internal S&T talent to 
evaluate what they're told, especially when there are opposing 
views or opaqueness in how experts arrived at their 
conclusions.
    By understanding the day-to-day experiences of Members of 
Congress and their staff, we believe that there are several 
steps that can be taken on two levels: long-term congressional 
workforce improvements and near-term actions to address 
immediate expertise gaps. Therefore, we have the following 
recommendations.
    In terms of workforce improvements, Congress should 
increase budgets to allow both committees and offices to hire 
additional staff members and pay more competitive salaries, 
which will help retain the staff they already have. This will 
ultimately save taxpayer dollars by giving offices and 
committees the expertise they need to thoughtfully evaluate the 
effectiveness of S&T spending or recommend other cost-saving 
actions.
    Congress should also hire additional staff with STEM 
(science, technology, engineering, and mathematics) backgrounds 
to increase in-house expertise and capacity. As a current 
staffer noted, congressional offices often hire from within. 
Staffers typically start as interns who worked their way up 
over time. In other words, the traditional hiring process is 
not necessarily designed for subject-matter experts with years 
of scientific training.
    For near-term actions to address immediate gaps Congress 
should strengthen legislative support agencies like the GAO or 
revive and revamp the OTA. A new or improved legislative 
support agency provides Congress with immediate benefits as it 
reevaluates its workforce. Given the time-sensitive nature of 
emerging tech that need effective legislation now, supporting 
an S&T expertise body will help provide timely information for 
a variety of congressional needs, specifically those that 
require a comprehensive evaluation of complex technical topics.
    And last, Congress should connect with universities to 
build more robust pipelines for recruiting STEM talent to serve 
on Capitol Hill.
    Improving S&T expertise within the policymaking community 
is not Congress' responsibility alone. Many STEM students 
aren't aware that they could be successful policy advisors on 
Capitol Hill or even what the jobs would entail. Academic 
institutions should educate STEM students in the policymaking 
process and roles within government.
    In conclusion, to truly fix Congress' science and tech 
problem it needs to fix its staffing problem. More immediate 
actions like refunding the OTA or enhancing entities like GAO 
or CRS are extremely valuable pieces of the puzzle but do not 
complete the picture. Conversely, only increasing staff 
salaries and hiring additional STEM talent will not solve the 
independent expertise gap either. Both are critical supports 
for each other. They allow Congress to have independent 
rigorous assessments of emerging tech while also giving it the 
in-house expertise and capacity to evaluate requests, advice, 
and proposed legislation.
    I acknowledge the challenges of some of these 
recommendations and the time it may take to make progress. 
However, to fully address the magnitude of the problems this 
country faces due to transformational technologies, we need an 
equally significant change to the way Congress recruits, 
retains, and absorbs expertise.
    Thank you again for the opportunity to testify and for 
holding an important hearing on this topic. I welcome your 
questions.
    [The prepared statement of Ms. Manley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairwoman Johnson. Thank you, Ms. Manley.
    Dr. Tim Persons.

                  TESTIMONY OF DR. TIM PERSONS,

        CHIEF SCIENTIST AND MANAGING DIRECTOR, SCIENCE,

             TECHNOLOGY ASSESSMENT, AND ANALYTICS,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Dr. Persons. Yes, Chairwoman Johnson, Ranking Member Lucas, 
and Members of the Committee, thank you for the opportunity to 
discuss GAO's expanding S&T products and services to Congress.
    As you are aware, rapid developments in S&T are 
transforming multiple sectors of society from medicine to 
communication to defense. Such disruptive innovations bring 
transformative opportunities but also the potential for 
unintended consequences. The ability of Congress to understand, 
evaluate, and prepare for such changes in an agile manner is 
critical if the U.S. is to remain secure, innovative, and 
globally competitive both now and for generations to come.
    GAO is approaching a half-century of delivering high-
quality content on S&T topics such as space systems, climate 
change, cybersecurity, and emerging infectious diseases. We 
ensure that this work is independent, fact-based, and 
nonpartisan by applying quality standards that help bring 
transparency, rigor, and authority to our work. We also apply 
congressional protocols that were jointly crafted with Congress 
to ensure that we understand legislative priorities and are 
responsive to congressional needs.
    Since 2001, in direct response to congressional direction 
and priorities, GAO has expanded its S&T portfolio by adding 
technology assessments, best practices guides for engineering 
project controls, and our new science and tech spotlight 
series, which are the single-page printed explainers of 
emerging S&T issues that the Members have in their packet.
    We also recently launched our Innovation Lab led by GAO's 
first Chief Data Scientist. This team will develop innovative 
analytic capabilities and explore algorithmic accountability in 
our era of machine learning. Together, these capabilities 
support Members of Congress and their staffs to carry out their 
article 1 constitutional responsibilities, that is, oversight 
of Federal S&T enterprise, insight into key S&T topics, and 
foresight on the potential opportunities and challenges for S&T 
advances.
    Now, foresight means spotting trends before they become 
front-page news. Our technology assessments provide in-depth 
critical analysis of emerging technologies and how they might 
shape society, the environment, and the economy. We've covered 
many high-profile issues, some in support of this Committee, 
including AI (artificial intelligence), sustainable chemistry, 
and nano manufacturing.
    This year, we added a policy options to our technology 
assessments, most recently in our work on irrigated 
agriculture, to further enhance the usefulness of these 
products to our congressional clients. And we are increasing 
the volume and speed of this work with upcoming products on 5G 
wireless technology, AI in drug discovery and development, 
deepfake videos, and gene editing. We are also pursuing a 
content-centric strategy for our S&T work so that we can 
provide such information to Members proactively, as well as on-
demand.
    We also know that our in-house expertise is crucial to 
successfully producing high-quality fact-based technical work. 
Our S&T team has now reached over 70 staff, and we plan to grow 
to 140. Over 90 percent of our staff have advanced degrees, and 
these in-house experts include physical, life, and 
computational scientists; engineers of the major disciplines; 
and other specialists. In addition, we employ staff with 
expertise in public policy, social science, economics, and law. 
The diversity of our staff makes GAO uniquely suited to perform 
effective S&T work for Congress.
    Finally, for the purpose of rigorous external input and 
review we have a network of external experts who help us 
develop and independently review our S&T work from a cross-
sectoral perspective. Since 2001 we have maintained a standing 
contract with the National Academies to help us identify and 
convene experts for in-depth discussion as part of our 
technical work. We are also enhancing our relationship with 
universities and scientific organizations so that we can tap 
external talent on short notice to meet congressional needs.
    As S&T increasingly dominates and transforms our lives, 
Congress' need for timely, independent, and fact-based S&T 
information is our team's paramount priority. The NAPA panel 
recommended that GAO further develop its S&T capabilities to 
help meet congressional needs. Under the leadership of the 
Comptroller General we already are doing so and will continue 
to do so. With our unique access to Federal information, our 
extensive internal and external expertise, and our rigorous 
quality standards, we can and will rise to the challenge of 
seeking to meet the S&T needs of the 21st-century Congress.
    Chairwoman Johnson, Ranking Member Lucas, and Members of 
the Committee, this concludes my prepared statement. Thank you 
for your attention to these issues and the opportunity to speak 
here today. I'd be happy to respond to any questions when you 
are ready.
    [The prepared statement of Dr. Persons follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairwoman Johnson. Thank you, Dr. Persons.
    Dr. Peter Blair.


                  TESTIMONY OF DR. PETER BLAIR,

        EXECUTIVE DIRECTOR, DIVISION ON ENGINEERING AND

          PHYSICAL SCIENCES, THE NATIONAL ACADEMIES OF

              SCIENCES, ENGINEERING, AND MEDICINE

    Dr. Blair. Good morning, Madam Chair, Ranking Member Lucas, 
Members of the Committee. Today's subject is a long-standing 
one with me, shaped both by my current post at the Academies 
and my earlier role at the former OTA. So the views I express 
today are my own based on that experience and not necessarily 
those of the Academies per se since we haven't addressed the 
topic in a long time, actually since the 1960s, although that 
may be something for you to keep in mind.
    Let me say at the outset the prospect of reinvesting in a 
dedicated technology assessment capability for Congress has 
come before you from time to time in recent years, but it 
should be abundantly clear that such investment in a variety of 
ways, as both the reports you've heard about recommend, is now 
long overdue.
    Today, Congress draws on many sources of advice, but it 
created for itself four options historically that have been 
used most frequently for science and technology-related issues: 
The National Research Council (NRC), the operating arm of the 
Academies, the CRS, the still-authorized but unfunded OTA, and, 
more recently, adding to the mission of GAO.
    Now, Congress created each option for a specific purpose, 
but in the wake of the OTA's suspension of operations in 1995, 
the others assumed some of OTA's function. But to date that 
assumption has occurred only to a modest degree even after 
nearly a quarter of a century. And to illustrate this I give 
you three observations.
    First, following OTA's closure, congressional requests for 
Academies studies doubled but then the next year fell back to 
its historical trend most likely because most NRC studies 
currently are carried out at a different level of policy 
extraction context than the efforts that the Congress 
traditionally commissioned to the OTA.
    Second, CRS' timely off-the-shelf information remains an 
essential resource, but it hasn't filled and never aspired to 
fill the analysis gap left by OTA's closure.
    And finally, as Dr. Persons mentioned, GAO began in 2002 
ever so slowly to develop a technology assessment capability. 
It remains a work in progress, and there are important 
challenges to mature that capacity.
    So the salient question is at this point, how best to 
improve Congress' capacity overall in a way that is 
authoritative, independent, objective, timely, and tuned 
specifically to Congress' needs as distinct from executive 
agency needs.
    The current needs are compelling enough that that 
investment need not be either/or among the options. Rather, the 
result would be more effective overall as a hybrid, that is, to 
deploy each organization building on its design strengths and 
realize additional economies from effective collaboration among 
them rather than attempting to reinvent the wheel in any one of 
them.
    The historical OTA experience, in producing hundreds of 
assessments over its 23 years, has some important lessons 
applicable even today. By the way, you can see all of the 750 
assessments just by Googling ``OTA legacy'' or in better 
bookstores in the Washington area the CD collection is around. 
It's a fascinating read even today.
    But let me recap the three lessons. First, OTA drew 
extensively and broadly on the Nation's authoritative 
technology and other relevant expertise through its panels, 
contractors, consultants, and through participation in many 
workshops for each assessment. Also, OTA relied on staff 
expertise recruited specifically to match the technical and 
policy needs of each assessment undertaken individually.
    So far, GAO's assessment involvement of external experts 
has been modest by comparison, so they have some work to do. 
But overall, the lesson is in order to be unassailably 
credible, it is essential to engage the Nation's vast reservoir 
of authoritative technology and other relevant expertise 
formally in generating science and technology advice.
    The second lesson, like the Academies, OTA relied on the 
crucial quality assurance step of rigorous external review of 
its work, again, from authoritative experts and stakeholders 
across the Nation. So far, GAO's review remains dominated by 
the internal processes with some limited external review. So 
again, it's on the to-do list for GAO. But the lesson overall 
is extensive and fully accountable external review is essential 
to demonstrating credibility that the advice delivered is 
independent, objective, authoritative, and current.
    And finally, the third illustrative lesson is OTA's 
statutory technology assessment board of House and Senate 
Members, informed again by a standing council of external 
experts, commissioned assessments in response to bipartisan 
leadership requests from committees of jurisdiction most often 
from both chambers. Most of the GAO assessments so far have not 
been undertaken in response to formal requests from the 
committees of jurisdiction and none so far in response to the 
bipartisan requests from such committees in both chambers. So 
there are protocols for the balance of GAO's work that when 
applied directly to technology assessment need some 
augmentation.
    I didn't mean to pick on GAO solely. All the options need 
modernization. GAO's initiative going forward, as you heard 
from Dr. Persons, promises features tuned to today's context 
and in the direction of the OTA standards I just described, 
although after 17 years, they have some catching up to do.
    The NRC also is undergoing a major transformation 
internally that may yield some important ways of providing 
authoritative S&T advice to the Congress. But since progress 
toward replicating key features of OTA has been slow, Congress 
needs to redouble its efforts to develop effective advisory 
capabilities wherever it resides both in modernizing a 
dedicated OTA-like organization, as well as enhancing the 
capacity of existing mechanisms.
    Moreover, going forward, both reports mention a broader 
portfolio of activities, products, closer connections with 
other organizations, enhanced communications capacity, and more 
collaboration across the agencies. The collaboration feature is 
particularly important. I think, for example, GAO's well-
developed performance audits augmented by its developing S&T 
capability could be much more effective than an OTA assessment 
alone in evaluating the management performance of executive 
agency programs.
    There are other examples, but they all underscore my 
principal conclusion as I noted at the outset, that the overall 
goal should be to deploy each organization in line with its 
design strengths and to achieve economies and collaboration 
across the cylinders of excellence rather than try to reinvent 
the wheel in any one of them.
    [The prepared statement of Dr. Blair follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Chairwoman Johnson. Thank you, Dr. Blair.
    Dr. Blair. Thank you.
    Chairwoman Johnson. At this point we will begin our first 
round of questions, and the Chair will recognize herself for 5 
minutes.
    We all agree that Congress is not sufficiently equipped to 
address the many complex S&T issues affecting society today, 
and I'd like to go down the line and hear from each of you 
about the consequences of this deficiency, what is the one 
issue that Congress has failed to adequately address either 
through legislation or oversight and because of its lack of 
science and technology capacity. And why should the American 
public care? So I will start with our first witness, Mr. 
McCord.
    Mr. McCord. Thank you, Chairwoman. The consequences, as a 
number of panelists have said, is if the Congress is failing to 
be proactive, then the private sector, others, are setting the 
agenda for you or other nations. So I think that that remark 
was very apropos.
    I would personally rank probably climate change as the 
biggest issue out there in science and technology space, 
although there are many others from quantum computing to 
artificial intelligence. I think that climate change probably 
would be my number one.
    Chairwoman Johnson. Thank you.
    Ms. Manley. Thank you. I think speaking for myself I would 
say one of the most pressing concerns is our lack of 
legislation on any kind of real data privacy rights. I think 
that's related to how we're addressing some of the social media 
platforms that are interfering with our elections and that are 
taking advantage of a lot of people that aren't quite aware of 
what they're viewing and what they're looking at.
    Chairwoman Johnson. Thank you very much. Mr. Persons.
    Dr. Persons. Thank you, Madam Chairwoman. Right behind you, 
Proverbs 29:18 says, ``No vision, the people perish,'' and a 
lack of vision is one of the key challenges. It leads to errors 
of omission strategically that result in, I would say, not 
optimized economic competitiveness, safety, security of the 
U.S., and so on. And so I think that's the--sort of the 
consequences of insufficiency I think often would fall in that 
regard.
    I would add to the macro issues I think that we're behind 
on legislatively could involve cybersecurity. It's just such a 
hard, tough cross-sectoral issue. Even if we have perfect 
performance from our Federal Government, which we need on this, 
it still needs our best-thinking university, industry, and so 
on to solve that hard problem. And it's only getting worse with 
the proliferation of Internet of Things and 5G wireless and so 
on. So that's just one.
    I would say that there's certainly a lot of things to do, 
and that's exactly why we actually have a sister team at GAO 
working on IT and cybersecurity all by itself. Thank you.
    Chairwoman Johnson. Thank you. Dr. Blair.
    Dr. Blair. I'd say the role of science, technology, and 
innovation as a driver to economic growth and prosperity is 
where we've fallen short. The structure of the U.S. economy is 
changing quickly, and the opportunities for growth and 
investment in science and technology have to be strategically 
considered. And I think that Congress can and has to play an 
important role in that and to have the capacity to look at the 
landscape and decide where those investments can be most 
effective, where regulation can be altered, where all kinds of 
issues associated with empowering that dimension should be 
considered. That's my vote.
    Chairwoman Johnson. Well, thank you very much. Ms. Manley, 
Congress has a constitutional responsibility to provide a check 
on the executive branch. However, one of the major consequences 
of Congress' lack of science and technology capacity is an 
increased reliance on the expert staff working at executive 
branch agencies and at the Office of Science and Technology 
Policy.
    I want to try to make myself clear. We have very great 
respect for scientists, engineers, and other expert civil 
servants working across government and value their expertise, 
but our reliance on them also creates an imbalance that could 
impede our ability to fully carry out our responsibilities of 
the legislative branch. Can you talk about this and why you 
think that it was important to address this in your report?
    Ms. Manley. So we identified three types of resources that 
Congress relies on for S&T expertise, and internal resources 
like committee staff, CRS, GAO, CBO (Congressional Budget 
Office) but also external resources and then hybrid resources 
like fellowships, detailees, and then the media. Within 
external resources, we do reference the executive branch. And 
while we do believe that it's very important to reach out to 
experts in other parts of the government, we also think that 
nothing is necessarily free if that's the common phrase that 
people use. So being able to have independent reviewed analysis 
from each committee and each personal office, it's really 
important for you to be able to evaluate the priorities based 
on your offices or your committees. So I think relying on these 
sources is inherently OK. It's problematic if it's the only 
source that you're relying on.
    Chairwoman Johnson. Thank you very much. My time is 
expired. Mr. Lucas.
    Mr. Lucas. Thank you, Madam Chair.
    Dr. McCord, in your testimony you state that GAO needs to 
make appropriate changes in its organization operating policies 
to accommodate the distinctive features of technology 
assessments and other foresight projects. Can you highlight the 
key things that NAPA thinks GAO needs to do to be successful?
    Mr. McCord. Yes, thank you for that question. A couple 
parts to that. First, our perception from the people that we 
interviewed that the panel and the staff interviewed was that 
there may be not full awareness of GAO's capability given that 
the STAA office is fairly new. The technology assessment effort 
is older, but the new office, so there may just be some lack of 
awareness on the customer side of what GAO is able to do as the 
capability develops.
    But we clearly got as we talked to people the concern that 
the overall mission of GAO is as a performance evaluator, as an 
auditor. It looks backward but this function looks forward, the 
function we're talking about today, so there was a concern 
about whether those two cultures can fit perfectly well and so 
our recommendation is to try and separate this office a bit 
from the overall backward-looking evaluating, auditing function 
partly because of perception of people that you are working 
with that do I want to fully share everything that I'm doing 
with someone who might come back in an audit later and 
criticize that based on that conversation?
    That may be fair or unfair to GAO, and I'm sure Dr. Persons 
might want to comment on that. But there is certainly the 
perception that the kind of openness that you want in 
scientific endeavors might be somewhat of a bad mix with, you 
know, the people that are going to come and audit that same 
issue so that a separation would be beneficial in our view.
    Mr. Lucas. What about that, Dr. Persons? Can you address 
how GAO can focus on those kind of recommendations?
    Dr. Persons. Yes, sir, happy to do so, and thanks for the 
question. I think the NAPA panel and Mr. McCord was pointing to 
the issue essentially goes to organizational change and growth. 
I'll just point to the fact that GAO really started performance 
auditing in this program evaluation context really in the 
1970s. So it's been decades since that time that is now our 
dominant product line if you will of work. We were started of 
course as a financial accounting and financial auditing and 
things, but we have greatly expanded our professional services 
for the Congress. As our former comptroller general said, we 
are a world-class professional services organization just 
happens to work for the Congress.
    And so the technology assessment is a function that adds in 
and can fit well to our long-standing--again, as I mentioned in 
my opening remarks, almost half a century of work starting in 
social science work and so on but moving forward with the 
evolution especially led by this Committee on things in the 
space program or nuclear issues or what have you. We've built 
up expertise and not just only recently as well, and we believe 
we can----
    Mr. Lucas. So you're comfortable with the question of 
whether an institution or the history being a review group can 
also be a forward-focused entity?
    Dr. Persons. Yes, sir. So like Mr. McCord was saying, 
essentially we are ex-post in one sense the training in terms 
of looking at something that's--we have to be fact-based and so 
on, and we're not about predicting the future as a rule. 
However, the ex ante work, we've been doing technology 
assessment, as was noted, for almost 2 decades now, and we also 
have a sister institution or entity within GAO now called the 
Center for Strategic Foresight. And that's just because they're 
not all just in the tech assessment because although all tech 
assessment is foresight, not all foresight is technology and 
science necessarily, although it's increasingly moving in that 
way. So there is a recognition of ex ante work and working 
toward and doing policy analysis in that particular dimension 
offering up options to Congress that are balanced that we 
believe we can do.
    Mr. Lucas. Dr. McCord, your study committee looked at the 
option of reinstating OTA or something similar and ultimately 
didn't recommend that option. What were the downsides of trying 
to bring back the OTA?
    Mr. McCord. Thank you for that question. We did not 
recommend it. It would be, I think, incorrect to say that we 
oppose it and the Academy would think it was a terrible idea if 
Congress did that, but you can't help but notice that for 25 
years Congress has chosen not to do that, so the question 
whether the support is there to go that route and sustain it, 
you know, that's a serious question for us, the viability of 
doing something that you've consistently chosen not to do.
    So that's why we believe that if you follow our approach, 
first of all, you could go that route eventually. Remember, we 
talk about creating an advisory office which is much smaller in 
the sort of scope and capability than OTA was, giving GAO and 
CRS a chance to do more, come back and evaluate that. You could 
always move in that direction if you needed to, but, again, you 
look at the fact that Congress has consistently not found a 
consensus around reinstating OTA. That kind of viability 
question is part of the equation that we talk about, as well as 
what is desirable. What is desirable would probably be to have, 
you know, 500 or 1,000 people dedicated solely to this, but are 
you willing to pay that, you know, to support that financially 
and otherwise in Congress? It seems that so far the answer has 
been no, so that bore on our thinking as well.
    Mr. Lucas. Understood. Yield back, Madam Chair.
    Chairwoman Johnson. Thank you very much. Ms. Bonamici.
    Ms. Bonamici. Thank you very much, and thank you to our 
witnesses for bringing your expertise here today.
    I've served on this Committee on Science, Space, and 
Technology since I joined Congress in early 2012. I, like most 
Members of Congress, do not have a background in science, 
although now that we have Dr. Foster, Dr. McNerney, and of 
course Mr. Casten with his science background, they enlighten 
us--yes, and Mr. Baird of course, Dr. Baird.
    All of us know that the people we represent and our 
policies and our planet will all benefit when we engage the 
scientific community in our decisionmaking. We're glad to have 
so much expertise here on the dais, but among all of us we need 
that assistance. We know our world is facing the consequences 
of climate change, as Mr. McCord mentioned, extreme weather 
patterns. We had a hearing yesterday. We know that toxic 
substances continue to impede access to clean air and clean 
water, emerging technologies, as Ms. Manley and others 
mentioned, shifting entire sections of our economy, creating 
challenges. We know that peer-reviewed, evidence-based science 
can help inform our decisions. And for more than 2 decades, the 
independent, nonpartisan Office of Technology Assessment 
provided Congress with that unbiased advice and information. 
But today, we're facing the consequences of efforts to defund 
this important resource.
    I am cosponsoring Congressman Takano's Office of Technology 
Assessment Improvement and Enhancement Act to reinstate the OTA 
and to make it more responsive to the needs of Congress. We 
won't be able to solve our Nation's most challenging problems 
without the expertise of scientists, so I'm glad we're having 
this hearing today.
    And I wanted to follow up on Ranking Member Lucas' 
question. Mr. McCord, you mentioned in your testimony that 
Congress directed the Congressional Research Service to engage 
with the National Academy of Public Administration to produce a 
report to study science and technology policy resources for the 
legislative branch. And specifically, the conference report 
stated that the study should assess the potential need within 
the legislative branch to create a separate entity charged with 
the mission of providing nonpartisan advice on the issues of 
science and technology. And as you indicated, the NAPA report 
suggests that Congress should provide CRS and GAO with the 
resources and authority to address the gaps in science and 
technology advice, which is inconsistent with the directive to 
assess the potential to create a separate entity.
    Now, it's my understanding that in conversations with our 
Committee staff the NAPA study team disclosed that it did not 
give full consideration to the need for a renewed Office of 
Technology Assessment and instead assumed that the GAO would 
perform those activities. Is that your understanding as well?
    Mr. McCord. Congresswoman, I would not say we didn't assess 
it. I would say it's difficult to assess something that hasn't 
existed for 25 years and compare it to things like Dr. Persons' 
unit that exists today. That I would agree is a challenge. We 
did look at both options and, as I said, we recommended that we 
start with building off of the things that exist today. It's a 
quicker way to get there in our view.
    You could ultimately--as I said to Mr. Lucas, you could 
ultimately move in the direction of going to a full OTA if you 
found that our approach was insufficient. I think it's easier 
to start with our approach and build that way if you feel you 
need to than to try to build the grand structure and possibly 
struggle and, you know, for several years and maybe not get 
there.
    Ms. Bonamici. And I appreciate that it was difficult, but I 
know you're up to the task. In your opinion does the NAPA 
report provide Congress with a comprehensive analysis of the 
options for independent scientific advice if it does not 
address the renewal of OTA?
    Mr. McCord. Well, again, I think we did assess that topic 
as well, but our mission from the report was to look at the 
questions Congress posed, as you said, and so it was not quite 
the clean sheet of paper that some of the other panelists here 
might have. So I wouldn't be surprised if we have different 
conclusions. To me, the salient point is that everybody on this 
panel I think agrees that we need to do better, that Congress 
needs more capabilities.
    But also, a big point with NAPA was that we felt that 
creating a lot more capability only works if you have time to 
absorb it. So the one thing that nobody on this panel, no 
organization can do is create more time in your day so----
    Ms. Bonamici. Which we would very much appreciate.
    Mr. McCord. Something has to change on your end as well----
    Ms. Bonamici. Understood.
    Mr. McCord [continuing]. Rather than just build something 
that you don't have time to read.
    Ms. Bonamici. And, Dr. Blair, in your testimony you discuss 
how the NRC, CRS, and GAO have assumed functions of the OTA. 
Sorry for all the acronyms but I know you're with me. They've 
assumed functions of the OTA since 1995. In light of the 
limited resources, these entities currently have and given that 
GAO has not fully implemented its technology assessment plan, 
do you agree with the NAPA study team's decision to assume that 
the GAO would perform all of the technology assessment work? 
And what value could a reinstated OTA bring to Congress if the 
structure were more responsive to our policymaking needs?
    Dr. Blair. Well, I think there are several paths to the 
future. I think that, as I mentioned, the best path is to use 
the template that existed for OTA that is as an independent, 
dedicated technology assessment organization. As I mentioned at 
the outset, it is still authorized, and all of the work 
practices were there. They have to be modernized just like all 
of the options that we've discussed today, but I'm not sure I 
would dismiss it because it hasn't been addressed in so long. 
The OTA experiment went on for 23 years, and it had a pretty 
good track record. And I think it's worthy of a serious 
consideration for a complete look at that.
    Ms. Bonamici. Thank you. And I see my time is expired. I 
yield back. Thank you, Madam Chair.
    Chairwoman Johnson. Thank you very much. Mr. Posey.
    Mr. Posey. Thank you very much, Madam Chair, for holding 
this hearing and the options to improve science and technology 
advice for Congress.
    From 1972 to 1995, Congress had an agency called the Office 
of Technology Assessment, the OTA for purposes of our hearing 
here. Its objective was to provide Congress with objective and 
authoritative analysis of scientific and technical issues. But 
as we've heard discussed, it was abolished because it was 
duplicative and a wasteful useful use of taxpayer dollars.
    It also strayed from its nonpartisan origins, I understand, 
and published biased studies. The OTA published a background 
paper in 1984 on our Nation's missile-defense system in space, 
and in a Heritage Foundation report entitled, ``Reassessing the 
Office of Technology,'' it stated, ``Regarding the missile-
defense paper that there are reasonable grounds to conclude 
that the OTA background paper compromised the national security 
by revealing information relating to the national defense.'' 
Due to the OTA being a congressional entity, as the Ranking 
Member previously pointed out, it was nearly impossible to hold 
them accountable. The OTA's lack of accountability, 
partisanship, and national security concerns led to its demise.
    And so we're here today because some Members of Congress 
have demonstrated a propensity to leak sensitive information, 
and the history of the OTA in dealing with national security 
issues makes many wonder about the reasonableness of 
reestablishing it.
    You know, does the GAO have a secure structure in place for 
handling sensitive or classified information? And has the 
sensitive information ever been compromised as with the OTA 
paper on missile-defense in space? And the question is for Mr. 
Persons.
    Dr. Persons. Short answer, yes, sir, we do. We have all our 
apparatus to handle classified information even up to the top 
secret and SCI level. Thank you.
    Mr. Posey. Do you see any way that the OTA would help your 
agency with information?
    Dr. Persons. I'm sorry, the question is would a 
hypothesized revived OTA help GAO?
    Mr. Posey. Yes. Yes, would it be of any value to the GAO?
    Dr. Persons. Well, I think it would be--if a revived OTA 
were in place, it would be one of our sister agencies that we 
would coordinate with so that we don't duplicate work. I think 
one thing that I think all parties are agreeable here--I'm not 
going out on a limb--is that there's a lot of science and 
technology work to do. And so I think we would coordinate with 
them in the same way that GAO's protocols at the start of every 
study interact or check with CRS and CBO at the moment if an 
OTA were back. And we did this decades ago when OTA was there. 
We would coordinate with them on that.
    Mr. Posey. Do you think money would be better spent 
bolstering the GAO or reinstating an OTA?
    Dr. Persons. Sir, our policy--if the Congress wills, we 
already are growing into--as I mentioned, our aspirational 
target number is 140 FTEs (full-time equivalents). That is 
comparable to what OTA's FTE count was at its shuttering as far 
as we understand it. It depends, sir, if it's a zero-sum game. 
If you pay this entity versus GAO, that's the delicate issue. 
We do think, again, there's plenty of work to do even with an 
OTA, and it's GAO's official policy that we would help support 
and coordinate with any hypothesized standup of OTA. However, 
if the question is whether or not we are willing, able to do 
this, I think the short answer is yes.
    Mr. Posey. It takes a pretty compelling argument to get 
most of the people in my district to think it's a good idea to 
start another government agency which failed before and is 
doing a job done by other government agencies presently. But I 
thank you for your comments, and I see my time is about to 
expire, and I yield back. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Foster.
    Mr. Foster. Thank you, Madam Chair. And thank you to our 
Ranking Member Lucas and the panelists.
    First off, I want to thank the Committee leadership for 
holding this hearing today on this important topic. I've long 
been a champion of bolstering the science and technology 
capacity of Congress from both Members and staff. I've been a 
longtime advocate of the reinstatement of the OTA as a 
bipartisan, independent source of sound technical and 
scientific analysis. And I've raised this issue, as many of my 
colleagues know, many times in this Committee.
    I'm proud that we successfully pushed for $6-million 
funding to restore the OTA in the House FY 2020 legislative 
branch appropriations bill. And while we've been waiting on a 
final appropriations agreement, I, alongside with my 
colleagues, Representative Takano in the House and Senators 
Tillis and Hirono in the Senate, introduced the bipartisan and 
bicameral OTA Improvement and Enhancement Act to strengthen the 
office's ability to serve the growing need for technology 
expertise in Congress.
    This Act modernizes and strengthens the OTA by enabling any 
Member to request a technology assessment to be considered by 
the technology advisory board; adding a Congressional Research 
Service-style deliverables to the office's function, and duties 
such as providing briefings and formal conversations, and 
technical assistance to Members on science and technology 
issues without the need for board review requiring preliminary 
findings of ongoing technology assessments, in addition to 
completed analysis; also requiring final reports to be made 
publicly available whenever possible and introducing a rotator 
program to hire experts from academia and industry modeled 
after the rotator program at the National Science Foundation; 
and finally, directing the office to be as open and transparent 
with Members about the request review process as possible.
    I have tremendous respect for the work that's done at the 
GAO, but it is a common source of frustration among Members 
with not a lot of seniority in this operation that you have to, 
because of the manpower restrictions, prioritize. And very 
often that means requests by Members without seniority, you 
unfortunately have to prioritize off the list of things you 
actually work on. Because, you know, the good ideas in this 
body come from Members of all different levels of seniority, 
and unfortunately, you're not able to respond more to that.
    One of the reasons I believe that restoring and enhancing 
the OTA is important is that this problem is so important that 
we need an all-of-the-above approach frankly on this thing.
    I share Mr. McCord's worries about the political viability 
of this. It was sort of a sad situation, you know, back I guess 
in the 1980s when, for the first time, you saw scientific fact 
become a partisan issue. I think there's probably no clearer 
example than the one that was raised earlier with the Star 
Wars, Ronald Reagan's dream of an impervious missile defense. 
Somewhere on those pile of CDs is the OTA report.
    It escaped a lot of Members' notice, but we quietly this 
summer killed the EKV, the enhanced kill vehicle, the latest 
incarnation of Ronald Reagan's unworkable dream of having an 
impervious missile-defense system. And if Congress had been 
paying attention, even reading that ancient CD from almost 40 
years ago now, we would have saved tens of billions of dollars. 
We've now spent more in absolute dollars on the missile-defense 
program than we've spent in absolute dollars on the Apollo 
program. And we've gotten a system that we've had to cancel 
again and again and again despite claims that it's--and so this 
is the problem that scientific reality is that these kind of 
systems, midcourse interceptors, just cannot work for 
fundamental physics reasons, and if you make that correct 
scientific point, it is interpreted as a partisan political 
point. You get into similar discussions with climate change.
    And so this is one of the reasons why Mr. McCord is right. 
We have to be very careful that this is going to be politically 
viable because there are real risks that one party or the other 
will get very angry when it's pointed out that their dreams are 
not reality. And that's the value of this.
    You know, if you think if Congress had paid attention to 
what the OTA said back then, you know, what that $25 billion 
could have done in science policy, you know, over the course of 
the last 40 years, it's sort of breathtaking. And there are 
other examples of the OTA's output.
    Anyway, I'd like to also enter into the record here a 
report of an evaluation of the NAPA report, a reaction to it. 
That really, you know, points out I think things that have 
already been pointed out. And so without objection, I'd like to 
enter that into the record.
    Chairwoman Johnson. Without objection.
    Mr. Foster. That really, I think, you know, highlights. You 
were given a charge which didn't give you the clear chalkboard 
to come up with a complete plan.
    Anyway, I just want to thank the Chair and all the 
witnesses for their engagement in this. And I'll close with one 
last thing. The Belfer Center, I was very, very pleased--Ash 
Carter invited me to go to a workshop or discussion on this 
very issue at the Belfer Center. And the level of engagement of 
that organization toward what they see is a key shortcoming of 
Congress is something I just want to applaud, so thank you all.
    Chairwoman Johnson. Thank you. Mr. Baird.
    Mr. Baird. Thank you, Madam Chair. And thank all the 
witnesses for being here today. We appreciate you sharing your 
expertise with us.
    But, Mr. McCord, when your study committee was looking back 
at the Office of Technology Assessment, were you able to 
interview folks to find out how the office did or did not serve 
the needs of the Members? And then in that same vein can you 
share some of those findings and what the lessons learned were 
that influenced the decision not to reinstate the OTA?
    Mr. McCord. Congressman, yes, we interviewed I believe it 
was about 127 people, including those, you know, familiar with 
the old OTA. But our task was not to evaluate whether OTA when 
it existed was as good as it should have been, should be 
brought back exactly as it was. We were operating, you know, in 
here and now. So although looking back at OTA was part of what 
we did, it was not the focus I guess of our task from the 
appropriations conference. So I would not to want to represent 
our report as authoritative on whether OTA succeeded or failed 
in its time. That's really not what we were looking at. We were 
just trying to look at what would happen--you know, what are 
the options before us today and again trying to make some 
judgments partly on what is this body and the other body 
willing to do given the history of relative inaction on this 
subject.
    Mr. Baird. So, Dr. Blair, Dr. Persons testified that GAO 
uses the National Academies as a resource. Can you talk about 
how the GAO and the National Academies are coordinating and how 
you think the GAO could better utilize the Academies as it 
expands its science and technology work?
    Dr. Blair. I don't remember when the contract started. It 
was quite a while ago.
    Dr. Persons. 2001.
    Dr. Blair. 2001. It was an illustration, I think, of the 
collaboration that is essential for success in the future of 
how this family of organizations can get more out of the 
collection than just the sum of the parts. That particular 
contract is to use the Academies' Rolodex if you will to 
identify the best and brightest minds, technical minds 
principally, associated with an assessment on the table, and 
that that group of experts then can be used both to inform the 
assessment ongoing at GAO and to be a source of some degree of 
external review as the assessment goes forward.
    Mr. Baird. Sorry, I have one more question for you then 
along that same vein. The National Academies of Science were 
created in 1863 by a congressional charter.
    Dr. Blair. Yes.
    Mr. Baird. That was approved by President Lincoln. And they 
were tasked with serving as an advisor to the Federal 
Government on science and technology. Do you have any 
recommendations for how Congress can better utilize the 
National Academies? And do you have any recommendations for how 
the National Academies can better serve Congress?
    Dr. Blair. That's a very good question. I think I might 
mention that right now the Academies is undergoing a 
transformation. The National Research Council, the operating 
arm, is undergoing a transformation to examine better ways that 
it can advise both the executive branch and the Congress. I 
think many of the things that are addressed in both of the 
reports such as producing shorter, more timely reports, being 
able to provide information while an Academies study is 
ongoing, and all kinds of different modalities for being able 
to advise the Congress are certainly being considered as we go 
along. At the same time, Congress needs to be a receptor to the 
advice provided by the Academies to figure out where it best 
fits. And I think continued conversations like we're having 
with this Committee will very much provide opportunities for 
improving that impedance match going forward.
    Mr. Baird. Madam Chair, I'm out of time, but I think Dr. 
Persons would like to say something. Is that OK if we go on?
    Chairwoman Johnson. Yes.
    Dr. Persons. Just a quick response just from the GAO answer 
to how we're coordinating with the National Academies, as Dr. 
Blair noted. In 2001, we started our standing contract. We use 
it on a broad array of technical work.
    By the way, it's important that GAO has precisely defined 
technology assessment in a particular product line way, right, 
whereas I believe there's an apples-orange risk here where 
essentially everything OTA did is really science and technology 
policy when you really think about it from an oversight, 
insight, foresight process.
    So on many of our reports, including our oversight things 
when they are particularly technical like our antibiotic 
resistance report or superbug that's about to come out, 
emerging infectious disease work, that sort of thing, we 
routinely engage with them early on through the design and 
lifecycle process and review toward the end.
    Second, what we're doing is also now doing partnered work. 
We're about to issue a jointly branded report with the National 
Academy of Medicine on artificial intelligence and health care 
for drug discovery and development. And so that's one of a 
series. There'll be others that are coming on, diagnostic 
medicine, as well as delivery of care, but that's that piece.
    And then third, based upon the sustainable chemistry work 
that we did for this Committee and that informed the SCRD, the 
Sustainable Chemistry Research Development Act out of this 
Committee, we are also looking at and building a partnership 
with a different board of the National Academies on how to 
estimate or compute the economic impact or GDP on chemistry on 
the whole economy, which has not been done yet. So we're proud 
to be partnered where we are. They've been a key partnership 
with us, and we do extensive work with them. Thank you.
    Mr. Baird. Thank you, and I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Beyer.
    Mr. Beyer. Thank you, Madam Chair, very much.
    Ms. Manley, I really appreciate your addressing the 
elephant in the room, which is the need for additional 
congressional resources for staff capacity. I underlined in 
your report congressional staffers are overworked and 
underpaid, they tend to come from liberal arts backgrounds, 
extremely broad portfolios. Even in our small office I'm trying 
to figure out when the portfolios are so broad, you know, who's 
going to do what.
    And I would argue that we have to have a dualfold approach, 
and one of them is a lot more resources for the congressional 
offices. So I was really glad to see the Belfer Center report 
address this. And this is due to the low MRAs, the resources 
that we have, and the fact that so often our folks are interns. 
I think virtually everyone in my office except the chief 
started as an intern. The wonderful young woman behind me was 
our best intern, so we hired her and on you go.
    And as a result we look and see that, you know, we've had 
no COLA (cost of living allowances) for 15 years, there's no 
housing allowance, so some significant percentage of Members of 
Congress sleep on their couches in their own office. So you say 
it's a simple solution to raise Members' personal office 
budgets, remove the cap on office personnel, and increase the 
staff pay ceiling.
    So I want to get to the simple part of that. You know, 
we're the politicians up here, and we've not been able to 
figure out how to do that. What's the perspective from the 
Belfer Center?
    Ms. Manley. I don't think we have a special formula for 
doing that, and we do acknowledge that this would take a long 
time and it's a politically difficult task. But a lot of this 
conversation even in today's hearing has been about either 
reinstating the OTA or bolstering other agencies like CRS and 
GAO. And frankly, I personally think that both of these options 
are good things. But even if we reinstate the OTA and we 
continue on building up GAO, if we don't have better staff in 
offices, you might not be able to absorb the information in the 
first place.
    So, again, I don't have a silver-bullet answer on how to 
address making this possible, but I think making the case that 
even if you do move forward with these other options, if you 
don't address the root problems, then it really won't make a 
difference in the long run.
    Mr. Beyer. Yes. One of the other things, I'm used to 
running a business where everyone stays for 25 years, and it's 
been really difficult to understand that the wonderful young 
people with beautiful educations that I hire I can count on for 
maybe 18 months because they're so underpaid they have to go do 
something else. They've got to go to law school or Kennedy 
School or the like. But there is a Committee on Modernization. 
We need to continue to take this to them. They've come out on a 
bipartisan way and said we need a new OTA, but we also need to 
really invest in our own people.
    I also think some of the great breakthroughs in my office 
has had when we had scientists from the EPA (Environmental 
Protection Agency) 2 different years, so we actually had 
scientists that we weren't paying for that helped us really 
advance causes and develop good legislation.
    Dr. Blair, you recommended that Congress enact new 
authorizing legislation, blah, blah, blah, but also to provide 
for deliberative hearing process and congressional debate. How 
do you see that different from what we have right now? What 
would that enhancement be? And I say this with the perspective 
of floor time is so desperately scarce in this place right now.
    Dr. Blair. I'm not sure I fully--you mean the broader scope 
of technology assessment as it--to inform the decisionmaking 
process? Or do you mean replacing hearings? I'm not quite 
following you.
    Mr. Beyer. I'm not sure. This was in the panel 
recommendation.
    Dr. Blair. Oh, no, that----
    Mr. Beyer. Maybe I'm addressing it to the wrong person.
    Dr. Blair. That's probably the NAPA report.
    Mr. Beyer. Oh, the NAPA report. So, Mr. McCord, did you 
have a different idea, though, about a deliberative hearing 
process and congressional floor debate?
    Mr. McCord. Well, I think----
    Mr. Beyer. As it affects science and----
    Mr. McCord. Thank you, Mr. Beyer. First of all, I would say 
I would agree completely with what Professor Manley's report 
said about the problems, and your observations about staff 
being overworked, underpaid, and not having--you do have to put 
more money against this, and all the options on the table. As I 
think Professor Manley observed, all the options are going to 
cost money somewhere, whether you enhance OTA, add any more 
billets at GAO. But without your ability to absorb more, yes, I 
think that that would be an issue that you're going to 
underperform on your investments in creating supply of new 
capability if you don't increase your ability to absorb it.
    So we agree with a lot of the diagnosis that the Belfer 
Center has in its report about how we got to this place and to 
the comments you've made, too, about basically a self-imposed 
salary cap. For understandable reasons, staff can't make more 
than you do. You know, Members have not raised their own pay. 
So that is clearly part of the issue.
    But, as I said also in response to a previous question, no 
amount of financial resources create more time for you, and you 
observed a hearing time, floor time, you know, could be a 
challenge, and floor time is not under any one committee's 
control. But if no more time is devoted to these issues, then 
it's hard to see how you're going to advance the public 
interest in the way that I think everybody in the room would 
like to see.
    So Members have to find time in their day to understand 
these issues. You have to be able to afford staff that can get 
you this quality information. So, yes, that's what I will call 
the supply of your time and your resources, as well as--is very 
important in this matter.
    Mr. Beyer. Great, thank you very much. Madam Chair, I yield 
back.
    Chairwoman Johnson. Thank you very much. Mr. Babin.
    Mr. Babin. Yes, ma'am. Thank you, Madam Chair. Thank you, 
expert witnesses, for being here.
    Dr. Persons, I'd like to ask you a couple of questions if 
you don't mind. I want to thank you very much for your service 
and thank you for GAO's excellent service, do a fantastic job. 
We really appreciate that.
    As we've heard today, the National Academy of Public 
Administration report recommends that Congress should not stand 
up an OTA-like entity within the legislative branch but instead 
should provide the Government Accountability Office and the 
Congressional Research Service with the authority and resources 
to build their science and technology capacity. Do you agree 
that this would be a better use of taxpayer money in our 
country? And are there any authorities that GAO is currently 
lacking that is impeding it from building up its science and 
technology capacity?
    Dr. Persons. Thank you. First of all, let me return the 
thanks. Thanks, Mr. Babin, for the question----
    Mr. Babin. You're welcome.
    Dr. Persons [continuing]. For the compliment as well. We 
have an extraordinary staff that we've built and doing very 
important work, so appreciate that.
    In terms of our view on the capabilities or the capacity, 
we don't have an official position on whether or not we can do 
everything that's at, but we do believe we can do a good deal 
of the oversight, insight, foresight umbrella of work that we 
believe Congress has. We believe we're uniquely positioned to 
be able to just--the burden for Congress is but ask the 
questions that may pertain to science and technology and then 
we can work inversely to solve that and provide that in that 
case.
    Mr. Babin. Absolutely.
    Dr. Persons. I think it's significant, sir, that you have 
both Belfer and NAPA independently came from this from 
absorptive conclusion as well. I thought that was a very 
important--I was impressed with the studies in terms of the 
quality and what they were doing, and I think when you look at 
where they came out, that particular piece is important because 
it's one--in addition to Dr. Blair, I have other senior former 
OTA officials, some of which said, you know, the U.S. Congress 
is the most advised body in the world. So having more input is 
not necessarily I think the key challenge, although we always 
want quality of input in filtering and selecting.
    Mr. Babin. OK.
    Dr. Persons. So I think that's where we are on that.
    Mr. Babin. Great. And then what I most appreciate about GAO 
is the trusted nonpartisan information that it provides on the 
performance of Federal programs. And so I would ask you this. 
How does GAO ensure that it produces fact-based information 
that meets those rigorous standards?
    Dr. Persons. Yes, sir. So you can't get a report out of GAO 
if it's not all about the facts and what's provable, what's 
documented, and so on. We have the Government Auditing 
Standards that have been around for decades. We literally wrote 
the book. We're nearly a century old as an institution having 
done that. A lot of that, what we call the yellow book is 
essentially the scientific method in accountancy language. Did 
you get the right data, is it fact-based, are you getting 
balance in your inputs? Do you have an independent quality 
check? Are you communicating the results properly, and so on? 
And so in that case it's ideal, it really is a lot of it in the 
scientific method.
    Then we're also doing the--as we mentioned already, the 
National Academies partnership particularly when it's technical 
work to help expand and reach out to. And then, as I mentioned 
in my opening remarks, we're building those networks into 
universities and scientific organizations to be able to get the 
best and brightest.
    On tech assessment (TA), we just yesterday issued a Design 
Handbook to go out for a year of review and comment to help us 
with large public input to be accountable to what is good TA, 
what are the outcomes of TA, which I think is what the 
conversation needs to be about in terms of fitting in the 
absorptive side of things, and how do we vouch for quality TA--
--
    Mr. Babin. OK.
    Dr. Persons [continuing]. Which this is an augmentation of 
or an apparatus to help work under our quality assurance 
framework to guarantee, sir, what the Congress needs.
    Mr. Babin. Yes, sir. Thank you. Just how many Member-of-
Congress requests for information does GAO get?
    Dr. Persons. Well, we issue hundreds of reports a year, and 
then--so I would say we at least get as many of those, whether 
it's phone calls, tableside briefings. I recently did a 
roundtable with a different House committee just on electronic 
health records and what blockchain or digital ledger technology 
may mean for that, in addition to hearings and so on.
    Mr. Babin. So extensive?
    Dr. Persons. It's extensive.
    Mr. Babin. OK.
    Dr. Persons. And I do want to just--Dr. Blair is a friend 
of mine. He's been keeping us accountable ourselves. It is our 
middle name on this. But we do disagree with the idea that we 
are not relevant to committees. On page 13 of my testimony 
statement, we have nearly a dozen different committees, 
including House Science, in this case that request our work and 
that are absorbing and things like that. So we are tied in 
intimately through our congressional protocols to a broad array 
of Members and committees and staff and so on. So we are in the 
position to be in an on-demand, on-call if you just need to ask 
a question even as a quick can you tell me what 5G is all 
about, for example, then we're happy to come and do that.
    Mr. Babin. And that is a very good information, and I 
really appreciate that. I just think we need to make sure that 
Congress is always getting trusted, nonpartisan information 
that is being requested.
    So I yield back, Madam Chair.
    Chairwoman Johnson. Thank you very much. Mr. McNerney.
    Mr. McNerney. Well, I thank the Chair, and I thank the 
witnesses for your work. I really do appreciate it and see the 
need for it.
    Dr. Persons, how much would it cost for the GAO to grow its 
STAA team to 140 staff, as laid out in the GAO plan?
    Dr. Persons. Yes, sir, thank you, Mr. McNerney. Thanks for 
the thanks as well, and it's a pleasure to be here. At 70 FTE, 
we're estimating approximately $15 million for that, so a 
doubling of that would be the approximate number in terms of 
FTE count. That's for the Federal staff that would be on to be 
able to provide that nonpartisan independence and in keeping 
with our agency. But we also could have resources to tap into 
external expertise, so there's expenses at times to reach out 
and pay for convening of experts and so on through National 
Academies or others. And we're also updating the flexibility of 
our hiring process and so on in terms of getting--bringing--we 
bring folks under, for example, the Intergovernmental Personnel 
Mobility Act, or the IPAs, which other agencies also use to 
bring in scientific but term-limited staff for a time to 
augment the permanent staff.
    Mr. McNerney. So the $30 million that you aimed at, that's 
just personnel? That doesn't include outside activities?
    Dr. Persons. Any hypothesized outside--that's correct, so--
--
    Mr. McNerney. Thank you. Dr. Blair, what was the OTA's 
budget at the time it was defunded.
    Dr. Blair. Twenty-five million dollars.
    Mr. McNerney. OK. And that's about $37 million in today's 
budget, today's dollars?
    Dr. Blair. That sounds about right.
    Mr. McNerney. Thank you. Mr. McCord, how did the NAPA study 
team incorporate the operating costs of an enhanced GAO versus 
a renewed OTA in its analysis?
    Mr. McCord. Congressman, we were not asked to do a cost-
benefit analysis of whether, you know, a marginal dollar would 
be better here or there. We were looking really more at the 
capability. We did not advocate a specific number of people 
that GAO should add, so therefore, there was not a price tag on 
10 more people or 100 more people at GAO versus the office that 
we recommend--we recommended a fairly small amount for the 
advisory office, only in the $5-$10 million range.
    I think our main point with respect to GAO was that, again, 
the TA effort is 17 years old, 18 years old. But the new office 
is relatively new, I think only within the last year so that we 
believe it should be given a chance to do more, but we didn't 
price out how much, you know, you might be willing to spend to 
let them do a little more, add more capability. That would be 
one of the many decisions that you face in terms of how much 
you as a body and the other body as well are willing to pay for 
more capability, which everybody seems to agree that we need.
    Mr. McNerney. Thank you. Again, Dr. Blair, the consensus 
studies produced by the Academies are the gold standard for 
evidence-based advice and have directly informed the work of 
this Committee. Thank you.
    The NAPA study team determined that the Academies' 
consensus model is not well-suited for assessing policy 
options. Do you agree with that?
    Dr. Blair. To a degree. By far, the bulk of what we are 
asked to do at the Academies are more narrowly prescribed 
studies, that is, you come to us for an authoritative view on 
what to do. When there are deep ideological differences or 
policy differences, then the model such as the old OTA model of 
articulating completely the consequences of alternative 
pathways without recommending a particular course of action is 
something we don't do very often. We could do it more, 
particularly if we're asked in those terms. But historically, 
by far the bulk of our work is to have an authoritative 
committee come in and produce a report that provides an 
authoritative view on where we should go usually in a somewhat 
more narrowly defined topic than a broad topic like the future 
of biotechnology or quantum computing or something like that.
    Mr. McNerney. Artificial intelligence.
    Dr. Blair. Or artificial intelligence.
    Mr. McNerney. Ms. Manley, I was intrigued by your study of 
former Members. What led you to take that approach? And do you 
think that that was as informative as other approaches might 
be?
    Ms. Manley. Our approach was driven by our interest to 
understand the lived experience of Members and their staff 
specifically. We didn't set out to determine whether or not 
reinstating the OTA or reinvesting in support agencies was one 
way or the other. We actually didn't go in with any kind of 
hypothesis on what our findings were. We just wanted to 
understand what the experience was, and these are our findings.
    Mr. McNerney. So that was basically the focus. What is the 
experience of these former Members give you?
    Ms. Manley. What's driving the gap, yes.
    Mr. McNerney. Sure, thanks. All right. I yield back, Ms. 
Chairman.
    Chairwoman Johnson. Thank you very much. Mr. Cloud.
    Mr. Cloud. Thank you, Chairwoman. Good morning. Thanks for 
being here. And I look forward to the conversation. I 
appreciate the input that you're giving.
    Of course, we do have many challenges facing our Nation, 
and you mentioned a few of them. One that was not mentioned 
that is of primary concern and one of the biggest challenges to 
our Nation of course is our national debt and the fiscal 
issues. You know, this program was cut for budget reasons back 
in 1995 when our national debt was a resounding $5 trillion, 
and we would love to be there today now of course. On the other 
hand, we do have very real scientific challenges, especially as 
we consider the global threats that we face and need to ensure 
that we're able to meet those challenges for our Nation.
    I was wondering, Mr. McCord, could you kind of recap some 
of the resources that are available to us as Congressmen and 
women?
    Mr. McCord. Thank you. Yes. The primary resources that we 
look at and study are support agencies, Congressional Research 
Service not represented here today, which tends to do the 
shorter turnaround tasks from Congress, and then the Government 
Accountability Office, which is really the main heavy hitter in 
the field today that is something that is under the control of 
the legislative branch.
    We're well aware that there's many resources out there, the 
National Academy. I worked on the Hill for 24 years before my 
time at----
    Mr. Cloud. Right.
    Mr. McCord. My boss was deluged with books that people 
would come by to give him on topics of every imaginable 
subject.
    Mr. Cloud. I have a stack on my desk as well.
    Mr. McCord. So Dr. Manley referred to this, I think the 
most advised body. So we recognize that there's the outside 
resources that you have to assess whether someone has an ax to 
grind that makes you question their input, in addition to the--
--
    Mr. Cloud. Right.
    Mr. McCord [continuing]. Scientific community. What I think 
was driving our recommendation for an advisor and perhaps also 
the interesting re-creating OTA is that there should be 
somebody that is responsible only to you that is a voice, that 
is a coordinator that--you know, that you can trust. So right 
now you have----
    Mr. Cloud. It seems to me, and this has been touched on, 
but that the greatest challenge isn't the amount of 
information; it's the ability to triage----
    Mr. McCord. Yes.
    Mr. Cloud [continuing]. And get helpful and effective 
information for decisionmaking. And so I appreciate the fact 
that the conversation has kind of been geared that way little 
bit. I mean, we have the leading scientists--access to them 
across the whole country. I mean, we had Bruce Bimber in here 
the other day, you know, so we have access to people.
    But the question for me is how do we get effective 
information to people, we've been talking about the fact of a 
bipartisan effort here. I think the better term is nonpartisan 
of course when we're talking about science because really the 
data should lead it and not one party or both parties. But I 
don't have a whole lot of comments that necessarily putting 
that within the legislative branch produces that. Indeed, in 
the past, reports were often taking too long and some were 
withheld by the chair of the committee and not given access to 
the rest of Congress.
    And so I'm wondering if in your proposal, do you have any 
recommendations that address those issues?
    Mr. McCord. We certainly agree that you need unbiased, you 
know, nonpartisan advice that you can trust. When we talk about 
putting--for example, adding an advisor to key committees--not 
to this Committee of course. This Committee is a little bit of 
an exception in terms of already having the--you know, 
expertise on this issue, but on other committees. We certainly 
do not advocate having Democratic advisors and Republican 
advisors. I think it would be very much regret if that's the 
road that, you know, someone ended up going down.
    But we do think that the committees that produce the 
legislation don't have enough capability. Mr. Beyer referred of 
course to an even greater challenge in a personal office, and 
it is my experience that I think it's probably unavoidable that 
organizations like GAO or an advisor if you follow our 
recommendation or OTA if you create OTA, they're going to have 
to prioritize. They'll probably put committee requests first 
unless there's a really large investment and capability. I 
think that's going to be a fact of life. But on the team that 
you do have, does have to be nonpartisan.
    And I started my career----
    Mr. Cloud. I wanted to get one more question in for----
    Mr. McCord. Sorry.
    Mr. Cloud [continuing]. Dr. Persons. You've been producing 
reports in the GAO, and my understanding is you've been able to 
get them to us a lot quicker. Previously, you know, when they 
would take a year or two sometimes would get a request for a 
report and it wouldn't be until the next Congress, completely 
different people making the decisions, to get that information. 
And so you've been able to do that much quicker. Is that true? 
Could you speak to that?
    Dr. Persons. Yes, thank you for the question, and thanks 
for the compliment, Mr. Cloud. We are working on cycle times to 
get down to several weeks for the single-pagers that you have 
in your packet, the S&T spotlights, which are just brief 101s 
on the technology, up to an intermediate scale, which is about 
a 6-month--6- to 9-month turnaround descriptive only, and then 
up to 12 to 18 months in doing that.
    We do have that advantage of our congressional protocols 
and our extensive review process. We think we could have the 
quality and still meet the operational tempo. And that is part 
of--for the new science, tech assessment, and analytics team, 
our strategy is to be content-focused not just deliver a report 
per se even though, as the studies rightly point out 
independently with Belfer and NAPA, that there's still the need 
for the larger studies but there's also the need for this 
agility to reach out and also to be proactive to essentially 
say, Congress, you haven't asked for this yet but we're seeing 
something that's coming and we just want you to know about it.
    Mr. Cloud. Thank you very much. Thank you, Chairwoman.
    Chairwoman Johnson. Thank you very much. Mr. Casten.
    Mr. Casten. Thank you, Madam Chair. And for totally selfish 
reasons I want to thank you all for coming today. I think I can 
say this with confidence but one needs to be careful about 
superlatives in this line of work. I think I am the only Member 
of Congress as a freshman who made a campaign promise before 
getting elected to restore the OTA. I'm sure that's why I won. 
It really resonates in the district.
    The reason for that is somewhat personal. When I got out of 
graduate school with a master's in biochemical engineering in 
1997 I went to work for Arthur D. Little. And this was in the 
day the internet was coming around but we still had a corporate 
library that we had to use to do all of our research. And the--
whether we were looking at hydrogen storage technology or 
advances in battery technology or biomass gasification 
technology, we had this whole volume of OTA reports that we 
would go to look at not to tell us about will the technology 
work but what are the theoretical limits that you can get to in 
this technology if it did work, you know, with 100-percent 
efficiency, what would it get to so you can kind of backdoor 
what makes sense.
    Dr. Blair. I have a CD for you.
    Mr. Casten. Thank you. Microfiche, please.
    But as I'm sitting there--this is 1998, 1999--I'm noticing 
that they all sort of stop around I think 1994, 1995-ish. And I 
said to my boss, you know, where's the section of the library 
where I find the rest of these reports? And my boss sort of 
chuckled and he said, well, good news bad news. Bad news is 
Gingrich killed the OTA. Good news is we get to sell a lot more 
consulting services now because what used to be free to the 
public you now got to pay for. What the government used to get 
from OTA they now had to hire us, so we had a lot of work for 
DOE (Department of Energy) and EPA and USDA (U.S. Department of 
Agriculture) doing all of this analysis.
    And so I have the very lived experience that dropping the 
OTA didn't save the government a dime, probably cost more 
because my billing hour rates were a lot higher than what the 
OTA charged. But it probably made us dumber because now you 
could only get that information if you could afford to pay for 
it. And it made us ever-more dependent on lobbyists for the 
information.
    Now, since getting elected, I love what GAO does. I love 
what CRS does. It is fundamentally not synthetic. It is a 
report of what's out there in the existing literature, and when 
I want to go and find out what are the thermodynamic limits, 
the way I answer that question now is I hire a good staff. So I 
have staff that I've hired onto my team who have degrees in 
engineering and biostatistics and math. That is not the typical 
congressional staff.
    And the fact that we now have to go and do that with staff 
from what used to be provided elsewhere is a glaring hole. And 
I would reiterate we didn't save any money. We just got dumber.
    And, you know, back in Illinois we had that FutureGen 
project, huge carbon capture sequestration. With a master's 
degree and the back of a napkin, you could prove that that was 
inanely stupid and would never work. We spent 4 billion Federal 
dollars to prove what you could prove on the back of a napkin.
    So, as you might imagine, I am a bit concerned, Mr. McCord, 
about the NAPA conclusions. And when Mr. Lucas I believe asked 
you, your answer was mostly about the political reasons why you 
thought this was best in GAO. Leave us to sort out the 
politics. Are there nonpolitical reasons why the NAPA report 
concluded that the OTA from a scientific perspective--given my 
experience--why there shouldn't be a re-creation of the OTA?
    Mr. McCord. Thank you for that question. I would say that 
our panel consensus was that a more modest approach was more 
likely to succeed, so----
    Mr. Casten. But that's a political conclusion. I'm asking 
leave all the politics aside. I want to know--let's focus on 
what's necessary, and then we can deal with what's politically 
possible. What I want is for us not to be dumber. Is there a 
reason why not re-creating the OTA would be scientifically 
useful?
    Mr. McCord. Again, I don't think we would agree with the 
characterization that it's a political judgment, but again, 
looking at something that has failed to happen for 25 years, 
you can have something that's incredibly desirable that people 
aren't willing to pay for, and you have nothing at the end of 
that. And that's kind of where we sit today with respect to an 
OTA. So, again, we do not oppose the creation or re-creation or 
refunding of OTA, but we think that a better way to get there 
would be to follow this approach of creating an advisory office 
that is somewhat smaller that coordinates what's already being 
done in Dr. Persons' office and being done at CRS and see then 
if you need more. You can always move in that direction to see 
if you need more.
    Mr. Casten. Well, I'm basing basically out of time. Ms. 
Manley, do you have any reasons why from a nonpolitical basis--
just a yes or no because I know I'm out of time--non-
politically that are reasons not to create the OTA?
    Ms. Manley. No.
    Mr. Casten. Dr. Blair? OK. Dr. Persons, I'm going to leave 
you off on that.
    I just want to close with this. I just got back from the 
Madrid conference. If the justification for not creating the 
OTA is that in 25 years we haven't found the political will, in 
25 years we haven't found the political will to get serious 
about climate change. That is no reason for inaction. This is a 
much smaller problem. Let's do it.
    Thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Waltz.
    Mr. Waltz. Thank you, Madam Chair. Panel, thank you so much 
for coming today.
    I'm interested and just want to talk to you for a moment 
about the networking gap that you identified in the report. And 
I just want to echo my colleague Mr. Cloud. I don't think 
there's a dearth of information out there. It's really a debate 
of how to access it, how to triage it and make it useful for 
decisionmakers and policymakers.
    I represent Florida's 6th congressional District in central 
and northeast Florida, and the district that I'm in is home to 
several universities, including Embry-Riddle Aeronautical 
University, Stetson University, Bethune-Cookman, and others. 
And they really are doing phenomenal work, much of it federally 
supported, in paving the way for research and development in 
science and technology.
    And the NAPA report identified a gap in the networking 
support category, which basically the report defined as 
assisting Congress and gaining access to outside S&T experts. 
So, Mr. McCord, what do you see as preventing Congress from 
fully accessing and utilizing these important critical academic 
experts as a resource for us?
    Mr. McCord. Well, as has been noted, your institution gets 
a lot of input, and you have to then filter whether or not you 
think that it's got, you know, too much of a personal interest 
or ax to grind on when it comes in. On the networking side, I 
think we felt that if you had this advisory office that we 
talked about, someone that would be the face of science and 
technology for the Hill, that they would be able to do a 
coordinating function to be a face that people could reach out 
to and an ombudsman for an office like yours to go to say I'm 
having trouble getting the information I need; can you help me 
get in touch with the right people?
    Rather than have--it's not to say that you wouldn't have a 
workaround. You probably do since the thing we're talking about 
doesn't exist. Perhaps you go to GAO and CRS separately and say 
can you help me or perhaps you reach out to someone you know 
and trust, you know, someone like Dr. Blair who's outside the 
legislative branch entirely. What we think this coordinating 
office could do, though, is, again, to be more of the face of 
science and technology and an ombudsman to help you with these 
problems.
    Mr. Waltz. Thank you. Ms. Manley, would you add anything to 
that?
    Ms. Manley. It's related, but I'd actually like to just get 
this on the record. Speaking only for myself personally, a lot 
of this conversation has been about how we would bolster GAO 
and some of the other support agencies. But from my experience 
working with large bureaucracies and inside of them it is very 
difficult to change an institution from within, especially 
culturally. And from my work with tech startups, some of the 
most successful ones are the ones that deeply understand users 
from the start and can design from the ground up exactly what's 
needed.
    So a lot of this conversation has been focused on what's 
happened in the past and whether or not it was political or 
whether or not it was extremely useful and saved lots of 
dollars. But I think we've all acknowledged here that if we 
were to reinstate an OTA, it would be vastly different, 
completely different from the past. So I just want to get that 
on the record to say that it isn't a completely absurd idea to 
do that, but I do think it needs to be done in commendation 
with GAO.
    Mr. Waltz. Thank you. And just in the interest of time, 
looking over the horizon, I mean, looking at long-term trends 
rather than the immediate requests, how would that office or 
how would the advisor do that versus what GAO and what CRS is 
currently able to do? Would that be a specific mandate? And I'm 
really interested in looking at, you know, decades-out trends 
that we can start absorbing and hopefully begin legislating 
toward.
    Mr. McCord. Thank you. Well, in the panel's view, this 
office especially at the beginning would not have the capacity 
to do all of that itself. It probably would need to go out and 
contract with other people and work with other people, 
including GAO and probably including the National Academies of 
Sciences also. And from my background in the defense world, it 
was routine to have witnesses come in at the start of--the 
Director of National Intelligence comes in and does--here's 
what I see. Combat commanders from around the different 
geographic parts of the world do the same.
    So it's kind of that model of people that have that broad 
view come in and tell you what they see. And the horizon can 
be, you know, whatever you the Members--do you want 5 years, do 
you want 10 years, do you want 20. That would be something for 
this Committee and others to kind of give direction to.
    Similarly, I think you would want to decide do you want 
them to look at here are the big developments in science and 
technology that we see, or here are the big developments that 
we see where public policy is farthest behind? So you could 
have--again, that would be something that we would kind of 
leave to you to decide what do you want that horizon-scanning 
function to be.
    Mr. Waltz. Thank you. And thank you all for coming today. 
Madam Chair, I yield.
    Chairwoman Johnson. Thank you. Mr. Lamb.
    Mr. Lamb. Thank you all for being here. I think this is a 
really important topic. I'm kind of struggling with it a little 
bit because the conversation is at a pretty abstract level. You 
know, generally what types of advice Congress should get and 
from whom. Is there a way--maybe we could go down the line--and 
I don't know who wants to start. Ms. Manley was kind of where I 
got this thought. But, you know, Members of Congress are not 
just here kind of thinking up ideas and what to work on every 
day like philosopher kings or something. We're very responsive 
to our constituents and the problems that they have and the 
things that they bring to our attention.
    So is there a way that maybe you could each specify a 
problem that we are trying to solve here in the lives of our 
everyday constituents? And I think, Ms. Manley, you mentioned a 
little bit about data privacy and elections and that kind of 
thing. But is there a way for you to put it in those terms that 
better scientific and technology advice here in the institution 
of Congress, what's an example of a specific problem we might 
be able to solve that an average constituent of mine is going 
through?
    Ms. Manley. Sure. I think a perfect example where there's 
sort of a war of experts is on what to do about the big tech 
companies. A lot of experts even within Harvard will say we 
should break up the tech companies. Other folks would say that 
would be disastrous. So I think having an independent expert 
body that could really weigh in with all of the different 
options would be incredibly valuable. It's not something that 
individual offices could really take a look at comprehensively, 
so that's a prime example of where this expertise is really, 
really needed in a time-sensitive way.
    Mr. Lamb. Yes. I think that's a good example. And even 
within your example, there are those who say some companies 
should be broken up and not others, like they wouldn't even 
treat that as one category.
    I guess my observation is that I don't even think we're 
anywhere close to a consensus existing in the American public 
that that's one of the highest-priority problems that an 
average middle-class, working-class person faces. You may be 
able to draw those connections in the classroom, but in the 
real world I don't think that consensus exists yet.
    So does anyone have anything to say about the way that 
better or more contemporaneous scientific advice could address 
something, you know, say, related to the workforce or working 
conditions or salaries or consumer buying power, things that 
really people are going through on a day-to-day? Go ahead, Dr. 
Persons.
    Dr. Persons. Yes, thanks, Mr. Lamb, appreciate it. And I 
think I'll just mention two, but they are related. I mentioned 
earlier in my remarks about just the burgeoning or the 
unfolding of 5G wireless and the impacts there, lots of 
opportunities for that technology, you know, exponentiating our 
bandwidth and things. But it's at risk for creating a have and 
have-nots narrative in terms of your middle-class working. Is 
that something that's going to be for urban dense core areas 
only, or will it be available to the middle class or even 
especially in the rural areas, some of which don't even have 3G 
yet. So that's that.
    The second thing is with respect to machine learning and 
artificial intelligence, again, a key thing under the 
leadership of this Committee, there's been some great work on 
and apparently some draft legislation, but that has a lot of 
impacts on what's the impact on the workforce. I think the key 
thing is that it's not clear, as we reported in our 2018 report 
that it's the jobpocalypse as I'll say. It's not going to 
eliminate all jobs, but there's going to be a disruption in 
terms of certain types of jobs.
    And it's still somewhat of a predictive thing. We'll be 
wrong in one sense but less wrong if we're not doing this 
foresight, tech assessment-type work that's necessary in the 
scientific-advisory-body way.
    But we're sort of the frog being boiled slowly in the water 
on machine-learning systems, and that's why GAO's doing this 
foresight work, as well as tactically, we're working on and 
synthetically working on machine-learning algorithms and 
looking at accountability for that because you're going to see 
it in things where let's suppose a Federal agency may have a 
hiring system, and they implement a machine-learning algorithm 
to filter and sort on job applicants. How do we know, for 
example, that that algorithm, even if it's purchased off-the-
shelf from a software company, is compliant with the Civil 
Rights Act of 1964? So it's that kind of thing where we're 
moving in a statistical computing world that's necessary for 
things like what we're talking about here. Thank you.
    Mr. Lamb. Thank you very much. Yes, it's almost like having 
interpreters. I mean, it's almost like this technology presents 
an entirely different language in which we have to think in 
order to make rules.
    And with that, Madam Chairwoman, I yield back.
    Chairwoman Johnson. Thank you very much.
    Mr. Foster. Madam Chair?
    Chairwoman Johnson. Mr. Foster is recognized for a second 
round.
    Mr. Foster. Thank you very much. I really appreciate this 
opportunity to finish up on some of the things.
    I guess the thing I feel most strongly about is, Dr. 
Persons, I didn't have a chance to compliment you enough on the 
work that you're doing inside GAO. It is important to 
reconfigure yourself to meet this.
    You know, I've been working very hard with a number of my 
colleagues to try to get the OTA resurrected. Our odds of 
success are not 100 percent. And, as I said before, I think we 
need, you know, an all-of-the-above approach here because of 
the importance of this.
    And, you know, I think the other thing that I muse about 
frequently is the fact that we simply don't have on staff. You 
know, what you really want to do as a Member if you see 
something, a story in the press, is say, hey, is that garbage 
or not? Is that a real issue, you know, an issue for my 
constituents or for my district or for our country, or is that 
just sort of hype?
    And so if there is someone that you have right at hand that 
you trust, you know, if OTA was sort of enmeshed in Congress so 
there are several people that you would know on a first-name 
basis, call them up and say, hey, is this garbage or not, 
that's sort of the dream. Ultimately, that's the sort of help 
that you get from your staff.
    And another one of the sources of frustration I think was 
discussed in the Belfer report is that Congress doesn't have 
the ability to absorb the information at the rate--even though 
there are a lot of reports that could be read, we simply don't 
have the ability to absorb.
    And so one of my questions, what are the ideas that are out 
there to provide high-quality sort of long-term--you know, and 
not rotators or temporary fellowships and stuff, but people who 
make their career as science advisors close at hand to 
Congress? Any ideas on what's been tried there? Yes, Dr. Blair?
    Dr. Blair. Resurrecting ancient history I think, in the OTA 
experience, one of the sort of quiet resources that the agency 
provided that I think is aspirational for all the groups that 
we're talking about here was what George Brown and Ted Stevens, 
former chairs of that board, referred to as the shared staff. 
And that is in the OTA experience when a major assessment was 
done in a particular area, that expertise was then available 
for all the committees and often individual Members' offices to 
become really an authoritative resource in that area.
    And so I think, as the body of expertise develops in 
whatever mechanism is developed, making as a high priority the 
availability of those staff to serve both as shared staff of 
the committees and Members' offices but also as the Rolodex for 
identifying resources outside the Congress that can be a 
benefit across the board. So I think that's a mechanism that's 
important to keep in mind.
    Dr. Persons. Yes, sir, I just point to just from a capacity 
thing at GAO, as you know, again, 70 FTEs. We've hit that mark 
we had targeted for FY 2019 in terms of permanent hires. They 
are available to Congress now. Again, our design of this is to 
be proactive so the only burden Congress has to have is just 
ask the question. And then at times there will be questions 
that we might not be able to answer immediately or in a fulsome 
way, but then it becomes a risk-management discussion about 
what work might need to be done.
    But when you look at the Belfer Center report, page 62, 63 
about the ideal system with this, existing with the Congress, 
convening groups of stakeholders, serving congressional needs, 
options-oriented, that implies a permanent staff, which is what 
we have, as well as this scale and reach-out to not only 
National Academies but other external experts.
    A final thing that we're doing is in addition to the AAAS 
(American Association for the Advancement of Science) Fellows 
program and the TechCongress Fellows, all of which I think adds 
to or supports the absorptive narrative that you're hearing 
from Belfer and NAPA, we also send staff on details from GAO, 
and we want to be able to be embedded where that's possible. In 
fact, this Committee now has one of the STAA staff with it at 
the moment. We've had previous staffers on the Hill. It's 
something that we do because we're passionate about pushing out 
and serving you in a nonpartisan, fact-based, agile manner.
    Mr. Foster. Yes, Ms. Manley.
    Ms. Manley. I think another way to think about addressing 
this S&T gap is the role of universities. Our follow-up report 
from this recent one is to understand current pathways for STEM 
talent to serve on Capitol Hill, which universities have 
created effective pathways in how can we scale those. So I 
think it's up to universities to make sure that understanding 
policy is not just something that the policy schools do, and 
it's something that's integrated into other types of curriculum 
like law and engineering and mathematics.
    Mr. Foster. Thank you. And I guess I also can't close this 
discussion without just saying we have to do something somehow 
to figure out how to raise the level of staff salaries so that 
we can have, you know, this be a viable career. And we're about 
to lose in my office Susannah Howieson there who handles our 
Science Committee work here. We'd have to like double the 
salary that we could offer her to be able to keep her compared 
to the offers here. And, you know, someone with a young family 
in the D.C. area, you're constrained.
    And this is a problem. I don't know how to fix it. And I 
think if any of us ran for reelection with a platform of 
doubling staff salaries, I don't think we would last very long, 
but I think we should at least scale our salaries with, say, 
the median income in the United States.
    Well, I thank all of you for your attention to this idea 
and yield back.
    Chairwoman Johnson. Thank you very much.
    Before we bring the hearing to a close, I want to thank our 
witnesses for testifying before the Committee today and to say 
that the record will remain open for 2 weeks for additional 
statements from the Members and for any additional questions 
the Committee might ask of the witnesses.
    The witnesses are now excused, and the hearing is now 
adjourned.
    [Whereupon, at 11:59 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by the Hon. Michael McCord
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Tim Persons

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Peter Blair

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record




        Letter submitted by Representative Eddie Bernice Johnson
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        


             Report submitted by Representative Bill Foster
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             

   Executive Summary of a report submitted by the Hon. Michael McCord
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   


     [For full report, see https://www.napawash.org/uploads/Academy-
Studies/NAPA-FinalReport-forCRS-110119.pdf]

                                 <all>
</pre></body></html>
